TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Customer Account Data Engine 2 (CADE 2):
                      System Requirements and Testing
                       Processes Need Improvements



                                      September 28, 2012

                              Reference Number: 2012-20-122




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                    HIGHLIGHTS


CUSTOMER ACCOUNT DATA ENGINE 2                         infrastructure requirements; all infrastructure
(CADE 2): SYSTEM REQUIREMENTS                          documentation includes complete traceability to
AND TESTING PROCESSES NEED                             the requirements being tested and the testing
IMPROVEMENTS                                           results; IRS testers obtain and maintain
                                                       documentation to verify test results; test
                                                       execution practices are consistent; all security
Highlights                                             requirements and corresponding test cases are
                                                       identified and sufficiently traced, managed, and
                                                       tested; all database issues identified by
Final Report issued on                                 Vulnerability Detection Scans are resolved or an
September 28, 2012                                     action plan is developed with specific corrective
                                                       actions and time periods; and all issues
Highlights of Reference Number: 2012-20-122            identified by Source Code Security Review
to the Internal Revenue Service Chief                  scans are resolved and an action plan is
Technology Officer.                                    developed with specific corrective actions prior
IMPACT ON TAXPAYERS                                    to the code being placed into service.

The implementation of Customer Account Data            In management’s response to the report, the
Engine 2 (CADE 2) daily processing allows the          IRS disagreed or partially disagreed with three
IRS to process tax returns for individual              of our eight recommendations. The IRS
taxpayers more quickly by replacing existing           disagreed with developing an enterprise-wide
weekly processing. The CADE 2 system also              program level Requirements Traceability
provides a centralized database of individual          Verification Matrix (RTVM) and policy. TIGTA
taxpayer accounts, allowing IRS employees to           believes an enterprise-wide approach is needed
view tax data online and provide timely                to strengthen oversight of traceability controls.
responses to taxpayers. The successful                 The IRS also disagreed with the
implementation of the CADE 2 system should             recommendation that RTVMs are prepared
significantly improve service to taxpayers and         during the test Initiation Phase. However, as
enhance IRS tax administration.                        discussed with CADE 2 officials, our report
                                                       refers to both Requirements Traceability Matrix
WHY TIGTA DID THE AUDIT
                                                       and RTVM as “RTVM.”
The overall objective was to determine whether
                                                       Further, the IRS stated that automated tools are
the CADE 2 Transition State 1 testing activities
                                                       not always needed for control of requirements
were performed in accordance with applicable
                                                       and test case management for Information
policies and procedures.
                                                       Technology systems development. TIGTA
WHAT TIGTA FOUND                                       maintains that use of one suite of integrated
                                                       automated tools would provide needed control
The IRS initiated testing of the CADE 2 system,        over volumes of requirements and test cases for
reduced the risks to the filing season by              IRS systems, including the monumental CADE 2
implementing independent contractor                    system development program.
recommendations, and performed simulated
exercises to identify potential issues that could      Lastly, the IRS stated that additional CADE 2
occur during the filing season. Improvements           documentation is not needed to ensure
are needed in key controls and processes for           complete traceability of requirements to test
requirements management, testing processes,            results. The IRS believes that adequate
and developer security testing.                        documentation already exists with Government
                                                       Equipment Lists and environmental checklists.
WHAT TIGTA RECOMMENDED                                 However, while this documentation does verify
                                                       that infrastructure components have been
TIGTA recommended that the Chief Technology
                                                       acquired and implemented, it does not verify that
Officer ensure test cases and other appropriate
                                                       all CADE 2 processing requirements have been
documentation are properly developed for
                                                       tested.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 28, 2012]


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Customer Account Data Engine 2 (CADE 2):
                             System Requirements and Testing Processes Need Improvements
                             (Audit # 201120005)

 This report presents the results of our review of the Customer Account Data Engine 2 Transition
 State 1 testing activities. Our overall objective was to determine whether testing activities were
 performed in accordance with applicable policies and procedures. This review was requested by
 the Chief Technology Officer and was included in our Fiscal Year 2011 Annual Audit Plan.
 This review addresses the major management challenge of Modernization of the Internal
 Revenue Service.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
 Services), at (202) 622-5894.
                            Customer Account Data Engine 2 (CADE 2): System
                          Requirements and Testing Processes Need Improvements




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Internal Revenue Service Performed Extensive Testing,
          Planned Risk Reduction, and Implemented Controls Over
          CADE 2 Transition State 1 System Development ........................................ Page 3
          Requirements Management Controls Need Improvement
          to Ensure Long-Term Success of the CADE 2 Program .............................. Page 5
                    Recommendation 1:........................................................ Page 7

                    Recommendation 2:........................................................ Page 8

          Test Management Controls Need Improvement to Ensure
          Long-Term Success of the CADE 2 Program............................................... Page 8
                    Recommendations 3 through 5:......................................... Page 15

          Identified Security Issues Need to Be Resolved ........................................... Page 16
                    Recommendations 6 through 8:......................................... Page 20


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 21
          Appendix II – Major Contributors to This Report ........................................ Page 23
          Appendix III – Report Distribution List ....................................................... Page 24
          Appendix IV – Glossary of Terms ................................................................ Page 25
          Appendix V – Management’s Response to the Draft Report ....................... Page 31
            Customer Account Data Engine 2 (CADE 2): System
          Requirements and Testing Processes Need Improvements




                       Abbreviations

CADE 2          Customer Account Data Engine 2
DI              Database Implementation
DP              Daily Processing
FIPS            Federal Information Processing Standards
IMF             Individual Master File
IRM             Internal Revenue Manual
IRS             Internal Revenue Service
NIST SP         National Institute of Standards and Technology
                Special Publication
PMO             Program Management Office
ReqPro          Rational Requisite Pro
RTVM            Requirements Traceability Verification Matrix
TS1             Transition State 1
                        Customer Account Data Engine 2 (CADE 2): System
                      Requirements and Testing Processes Need Improvements




                                            Background

In January 2010, the Internal Revenue Service (IRS) Commissioner signed the Program Charter
authorizing the formation of the Customer Account Data Engine1 2 (CADE 2) Program to build
on the substantial progress the current CADE processing platform had accomplished and to
leverage lessons learned to date. The IRS
Information Technology organization2 has a lead         The CADE 2 Program is critical to the
role in developing and implementing the CADE 2          IRS’s mission and its most important
system. The CADE 2 Program was also created to           information technology investment.
address the risks of the current CADE approach and
to implement fundamental changes to the core IRS
business systems. The CADE 2 Program should achieve defined goals and manage and integrate
all the required components such as enhancement projects, new and legacy applications, business
processes, organizational changes, and policy and procedure modifications.
The CADE 2 Program Management Office’s (PMO) approach for delivery of the CADE 2
Program is a functional and technical progression through two transition states to a target state.
Transition State 1 (TS1) has two main purposes: 1) the Database Implementation (DI) project is
intended to establish a relational database that will house all individual taxpayer accounts and
provide the ability for IRS employees to view the updated account information online and 2) the
Daily Processing (DP) project is intended to provide individual taxpayer account information to
select external systems on a daily basis as opposed to the current weekly basis. The IRS
implemented the daily processing portion of TS1 in January 2012. The database portion of TS1
will follow daily processing. Transition State 2 is expected to address financial material
weaknesses and build or modify existing applications to directly interact with the CADE 2
database. The target state for the CADE 2 system entails completing the transition of all planned
Information Technology applications and realizing the business benefits expected with the
system.
Within the IRS Information Technology organization, the Application Development Enterprise
Systems Testing organization, in partnership with the CADE 2 PMO, is responsible for planning
and executing the testing activities required for verifying and validating the overall TS1 solution.
The Enterprise Systems Testing CADE 2 Testing Integration Office was established expressly to
support the CADE 2 Program and is responsible for planning, scheduling, coordinating, and
reporting on all CADE 2 system testing activities. CADE 2 testing processes are coordinated at


1
 See Appendix IV for a glossary of terms.
2
 As of July 1, 2012, the Modernization and Information Technology Services organization officially changed its
name to the IRS Information Technology organization.
                                                                                                          Page 1
                         Customer Account Data Engine 2 (CADE 2): System
                       Requirements and Testing Processes Need Improvements



the program level, and the TS1 comprehensive test schedule is maintained in the Individual
Master File (IMF) Schedule. The Cybersecurity organization is an Enterprise Systems Testing
organization test service partner3 responsible for conducting security testing activities designed
to ensure the system’s security safeguards are in place and functioning as intended.
This review was requested by the Chief Technology Officer and was performed at the IRS
Information Technology organization facilities in New Carrollton, Maryland; Memphis,
Tennessee; and Martinsburg, West Virginia, during the period June 2011 through June 2012.
During audit fieldwork, we concurrently advised CADE 2 testing officials when issues were
identified and suggested corrective actions. We also communicated preliminary audit results and
recommendations for improvement to the Associate Chief Information Officer for Modernization
– Program Management Office on October 7, 2011, December 12, 2011, and February 16, 2012.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




3
 A test service partner is an organization external to the Enterprise Systems Testing organization that performs tests
for the CADE 2 Program, through a test brokering agreement.
                                                                                                              Page 2
                         Customer Account Data Engine 2 (CADE 2): System
                       Requirements and Testing Processes Need Improvements




                                      Results of Review

The Internal Revenue Service Performed Extensive Testing, Planned
Risk Reduction, and Implemented Controls Over CADE 2 Transition
State 1 System Development
The Department of the Treasury procedures for information technology strategic planning and
portfolio management require bureaus to establish and maintain development processes and
procedures to ensure effective planning and execution of development activities and use of a
standardized systems development life cycle methodology. The IRS relies on its Enterprise Life
Cycle methodology to guide systems development activities, which include system testing. Our
review of CADE 2 TS1 testing activities considered the performance of extensive testing,
independent assessments from two contractors, performance of simulation exercises, and
improved controls to reduce risk and ensure the success of the CADE 2 system.

The IRS performed extensive testing of CADE 2 TS1
The IRS performed several types of testing, including the Accessibility Test,4 User Acceptance
Test, Systems Acceptance Test, Final Integration Test Phase 1, Final Integration Test Phase 2
(2012 Filing Season), Developer Security Testing, Source Code Security Review, and
Vulnerability Detection Scans prior to the implementation of daily processing in January 2012.
The IRS implemented Final Integration Test Phase 1 as an additional testing process to decrease
the risks of adverse impact on the 2012 Filing Season. The purpose of Final Integration Test
Phase 1 was to demonstrate that the CADE 2 programs would work correctly in a
near-production environment. Final Integration Test Phase 1 also allowed IRS executives
sufficient time to make any necessary contingency decisions.

Independent contractor assessments identified risks and concerns
The IRS contracted with two consulting firms to perform independent assessments of the
CADE 2 system to identify concerns and areas of risk that needed mitigation. One of the
contractor’s assessments determined that the Systems Acceptance Test was behind schedule,
continued to experience delays, and reported that less than one-half of the test routines were
executed. This resulted in the IRS adding test resources and extending the timelines for Systems
Acceptance Test delivery to December 30, 2011. Additionally, the assessment determined that

4
 Accessibility Testing is required by Federal agencies to maintain a technical environment that is accessible to
employees with disabilities and to the public at large. As a Federal agency, the IRS must ensure all information
content and systems comply with mandated technical and functional performance criteria.
                                                                                                             Page 3
                       Customer Account Data Engine 2 (CADE 2): System
                     Requirements and Testing Processes Need Improvements



operational testing did not support the IRS’s ability to handle a full weekly cycle in the allotted
time. The IRS responded by reviewing cycle times during an early January 2012 tax processing
run. By implementing specific recommendations from the contractor assessments, the IRS
reduced filing season risks. With this action, the IRS was able to utilize the independent
assessment reports to take necessary steps toward developing confidence and ensuring readiness
for the TS1 deployment in January 2012.

The IRS performed simulated exercises to identify potential issues that could
occur during the 2012 Filing Season
The IRS conducted CADE 2 processing simulation exercises to identify and correct potential
business processing issues. Tabletop exercises validated the processes and procedures that
would be executed for TS1 during the 2012 Filing Season. We observed five tabletop exercises
and determined that the IRS identified potential CADE 2 processing problems and developed
action items to address these concerns.
For example, one tabletop session looked at IMF processing in which the participants learned to
identify and correct any potential tax processing issues prior to the January 2012 implementation
of the CADE 2 DP project application. In one scenario for which a typical computer file was not
received during the processing day, the participant learned how to correct the problem within the
same day and still complete the processing. After tabletop sessions, action items are reviewed,
validated, and assigned during session debriefs. The IRS also subsequently tracks the status of
the action items to ensure completion.

The IRS implemented controls over the CADE 2 Program
The Chief Technology Officer also implemented corrective actions to address our prior audit5
recommendations. Controls were implemented to help prevent CADE 2 Program stakeholders
from removing and working on CADE 2 customer requirements outside of the Rational
Requisite Pro (ReqPro) application and to help them use this tool to fully manage the creation
and revisions of requirements. To accomplish this, the IRS provided training on ReqPro, held
monthly user group training sessions on advanced ReqPro topics, and ensured that the CADE 2
requirements were input into ReqPro.
The IRS also ensured requirements were managed in ReqPro prior to test execution. To
accomplish this, the CADE 2 PMO held weekly Integrated Requirements Team meetings with all
delivery partners to identify and mitigate requirement gaps and to help ensure requirements were
traced within ReqPro. The benefits of these corrective actions were intended to help ensure
ReqPro is utilized appropriately to manage CADE 2 requirements.


5
 Treasury Inspector General for Tax Administration, Ref. No. 2011-20-127, Customer Account Data Engine 2
Program Management Office Implemented Systems Development Guidelines; However, Process Improvements Are
Needed to Address Inconsistencies (Sept. 2011).
                                                                                                  Page 4
                     Customer Account Data Engine 2 (CADE 2): System
                   Requirements and Testing Processes Need Improvements



Requirements Management Controls Need Improvement to Ensure
Long-Term Success of the CADE 2 Program
Requirements are used to define specific business and technical functionalities that are needed
from a system. Traceability is a key component of requirements management and involves the
ability to describe and trace the life of a requirement from its source and through the complete
testing life cycle, in both a forward and backward direction. The CADE 2 Requirements
Management Plan and Internal Revenue Manual (IRM) 2.6.1, Product Assurance – Test,
Assurance & Documentation Standards and Procedures, provide guidelines for development of
requirements and tracing those requirements to their sources and to test cases. IRM 2.6.1 also
defines the testing life cycle and details when a Requirements Traceability Verification Matrix
(RTVM) is to be developed in relation to when test cases are to be developed and executed. The
RTVM and test cases should be developed before initiation of testing activities, and the matrix
should be updated and accurately maintained throughout the requirements management and
testing processes.
The ReqPro automated tool is the standard, within the IRS Enterprise Architecture, for
requirements management. All CADE 2 Program, project, and stakeholder personnel should use
ReqPro to create, manage, and control requirements and to maintain traceability across the
Program and projects. ReqPro can generate an RTVM to record and track requirements.
The CADE 2 PMO established a ReqPro repository to manage and baseline all CADE 2
requirements. However, the CADE 2 PMO did not develop and deliver a program-level RTVM
prior to initiating testing activities to ensure the Enterprise Systems Testing organization
subsequently traced the CADE 2 requirements to test cases and test case results. Instead, the
CADE 2 PMO first allocated the requirements to the Applications Development organization.
Subsequently, the Applications Development organization mapped the requirements to the
Unified Work Request document and allocated these requirements to the appropriate teams. The
requirements were then decomposed into specific CADE 2 requirements.
According to discussions and documentation provided by the IRS, the Applications Development
organization teams developed approximately 40 project-level RTVMs with these requirement
details and delivered the requirements via the RTVMs to the Enterprise Systems Testing
organization and the CADE 2 testing partners. The Enterprise Systems Testing organization and
the CADE 2 testing partners did adhere to the IRS standard of tracing CADE 2 requirements to
test cases in the RTVMs, and they further developed these RTVMs by adding test data such as
test cases and test results.
The CADE 2 PMO was responsible for verifying the Enterprise System Testing organization’s
traceability work. Therefore, the Enterprise System Testing organization delivered the final
RTVMs to the CADE 2 PMO. The CADE 2 PMO relied on a manual, ad hoc process to verify
whether CADE 2 requirements had been traced to test cases by the Enterprise Systems Testing
organization. However, we found that the CADE 2 PMO did not complete this verification
                                                                                          Page 5
                     Customer Account Data Engine 2 (CADE 2): System
                   Requirements and Testing Processes Need Improvements



process prior to the implementation of the CADE 2 DP project in January 2012. According to
the CADE 2 Requirements Measures and Metrics report dated January 17, 2012, there are a total
of 2,317 approved CADE 2 TS1 customer requirements, of which 468 (20 percent) requirements
were specifically related to the DP project. According to this same report, when the DP project
was implemented in January 2012, the CADE 2 PMO had only verified 53 (11 percent) of the
468 DP specific requirements through its manual, ad hoc process.
The CADE 2 PMO did not complete this verification process prior to the implementation of the
DP project because of numerous associated issues with the RTVMs provided by the Enterprise
Systems Testing organization. For example, CADE 2 RTVMs were grouped with others that
were not related to the CADE 2 Program. This necessitated that the PMO complete a difficult
process to determine which RTVMs were related to the CADE 2. Further, after the PMO
ascertained which RTVMs were related to the CADE 2, it was determined that the CADE 2
RTVMs themselves also included other requirements and test cases that were not related to the
CADE 2 Program. To address this challenge, the PMO then initiated another difficult process to
delineate the CADE 2-related requirements and test cases needed. As a result, the IRS did not
have sufficient assurance that all approved customer requirements were included in test cases
and tested prior to the implementation of the DP project in January 2012.
In addition, the process to ensure all requirements were traced to test cases was complicated by
use of new tools for requirements management and test case management. This included ReqPro
for managing all CADE 2 requirements and Rational Quality Manager for developing and
managing a portion of the CADE 2 test cases. Control over CADE 2 requirements and test cases
was also complicated because one suite of interacting automated tools was not being fully used
to develop, manage, and bidirectionally trace requirements and test cases or to monitor, manage,
and bidirectionally trace test case defects with test cases and requirements. The CADE 2 PMO
and CADE 2 testing partners are using a mixture of manual processes and automated tools that
do not interact and bidirectionally trace in an automated fashion.
Without program-level traceability between the thousands of CADE 2 requirements and test
cases, the IRS faces increased risks that some requirements may not be included in test cases and
be tested. As a result, the possible impact of incomplete, missing, or invalid requirements could
have an adverse impact on CADE 2 functionality and successful implementation in the long
term. Further, implementing this important management control would help to ensure taxpayer’s
trust in this IRS system.




                                                                                          Page 6
                     Customer Account Data Engine 2 (CADE 2): System
                   Requirements and Testing Processes Need Improvements



Recommendations
The Chief Technology Officer should ensure:
Recommendation 1:
   a. Requirements and corresponding test cases are identified and sufficiently traced,
      managed, and tested prior to the CADE 2 DI project implementation to ensure the
      CADE 2 system operates as intended.
   b. Enhanced oversight of traceability controls are implemented enterprise-wide. This
      includes developing a program-level RTVM prior to the test Initiation Phase of
      IRM 2.6.1 and updating that program-level RTVM to include test cases and final tests
      results. This process should be formally documented.
   c. The CADE 2 PMO provides enhanced oversight of the traceability controls. This
      includes developing and providing a program-level RTVM prior to the test Initiation
      Phase of IRM 2.6.1, and that the program-level RTVM is updated to include test cases
      and final tests results. This process should be formally documented.
       Management’s Response: The IRS agreed with Recommendation 1a. The IRS
       stated it will ensure that CADE 2 requirements and corresponding test cases are identified
       and sufficiently traced, managed, and tested prior to the CADE 2 Database
       Implementation.
       However, the IRS disagreed with Recommendations 1b and 1c. The IRS stated it has not
       committed to enterprise-wide program-level RTVMs or program-level testing IRMs for
       using program RTVMs. The IRS agreed with the principle of program-level traceability,
       but it does not agree that it needs to be implemented through an RTVM artifact, and that
       it has already complied with Recommendation 1c with the development of a CADE 2
       Program RTVM. The IRS also disagreed with the two recommendations based on what
       it believes to be inaccuracies in the content of the recommendations, in that the RTVMs
       are prepared during the test Initiation Phase, not before the test Initiation Phase.
       Office of Audit Comment: We maintain an enterprise-wide RTVM and policy are
       necessary to strengthen oversight of traceability controls for the CADE 2. Also, the IRS
       states RTVMs are prepared during the test Initiation Phase, not before. However, as
       stated in the report, we refer to the Requirements Traceability Matrix and RTVM as the
       “RTVM” for clarification purposes. The program-level RTVM should be maintained
       throughout the requirements management and testing processes to ensure complete
       functionality and long-term successful implementation for the CADE 2 system.




                                                                                          Page 7
                            Customer Account Data Engine 2 (CADE 2): System
                          Requirements and Testing Processes Need Improvements



Recommendation 2:
       a. A standard suite of integrated, automated tools is implemented enterprise-wide to enable
          programs and projects to develop and manage requirements, develop and manage test
          cases, bidirectionally trace requirements and test cases, monitor and manage test case
          defects, and bidirectionally trace test case defects with test cases and requirements.
       b. A standard suite of integrated, automated tools is implemented for CADE 2 Transition
          State 2 and all future CADE 2 projects to develop and manage requirements, develop and
          manage test cases, bidirectionally trace requirements and test cases, monitor and manage
          test case defects, and bidirectionally trace test case defects with test cases and
          requirements.
           Management’s Response: The IRS disagreed with Recommendations 2a and 2b.
           The IRS stated it has not committed to a policy, or funded a project, to standardize and
           implement tools on an enterprise-wide level, and that neither recommendation offers any
           flexibility for projects that are not good candidates for automated tools. Automated tools
           are not always necessary to maintain control over requirements and test case
           management, traceability, etc., so the IRS does not agree with our prescribing their use.
           Office of Audit Comment: As discussed with CADE 2 officials during the audit
           closing conference, it is important that this recommendation be fully addressed and we
           delineated the recommendation into two parts for clarification on the weaknesses
           contributing to our finding and also for tracking purposes. We maintain that a suite of
           integrated automated tools is needed to ensure that all requirements are included in test
           cases and appropriately tested for the CADE 2 system. Recommendation 2a addresses
           the need for the IRS to establish an enterprise approach to system requirements, including
           integrated, automated testing tools. Recommendation 2b addresses the need for such
           integrated, automated tools to support all phases of the CADE 2 system and to better
           ensure long-term success for this ground breaking mission critical system.

Test Management Controls Need Improvement to Ensure Long-Term
Success of the CADE 2 Program
The IRS implemented the CADE 2 testing processes to validate that the TS1 solution would
function as designed and meet the IRS’s tax processing objectives once the system is
implemented during the 2012 Filing Season. Adequate testing helps ensure that costly retrofits
are avoided after a system is implemented. According to IRS guidelines, CADE 2 requirements
must be reviewed and accepted before they are approved for testing. We judgmentally6 reviewed
49 of 3,083 approved system requirements and 48 of 1,530 unapproved system requirements as


6
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 8
                        Customer Account Data Engine 2 (CADE 2): System
                      Requirements and Testing Processes Need Improvements



of September 1, 2011. The 48 unapproved requirements were deferred, proposed, rejected, or
transferred.7 Our review of requirements testing activities identified several test management
concerns that could affect the success of the CADE 2 Program.

Documenting test cases and test results
IRM 2.6.1 provides guidelines for testing and is used as a guide to develop detailed test plans for
the CADE 2 system. The IRM states that test cases should be developed to support requirements
testing, and IRS testers should obtain and maintain evidence of the actual test results. The test
cases should include the requirements being tested, expected results, and documentation of
whether the requirements passed or failed during test execution. The tester should also maintain
evidence to validate the actual test results, which could include computer screen prints, input and
output data files, and system logs. During the test execution phase, test results should be
reviewed and validated.
In 12 (24 percent) of the 49 approved requirements that we reviewed, the IRS did not ensure test
cases were developed. Also, in 14 (29 percent) of the 49 approved requirements we reviewed,
the IRS could not always provide objective evidence the requirements were sufficiently tested
prior to the deployment of CADE 2 TS1 in January 2012.
Developing test cases for the infrastructure requirements – The 12 requirements sampled which
did not have test cases were infrastructure requirements. IRS management advised us that there
are two types of infrastructure requirements affecting the CADE 2 system:
       Process Automation and Monitoring Requirements – requirements that deal with the
        scheduling and monitoring of CADE 2 Programs.
       Environmental Design Requirements – requirements that deal with the creation of
        environments in which to develop, test, and implement final CADE 2 systems and
        business functionality.




7
  The requirement populations mentioned here do not include performance and capacity requirements, which were
reviewed in the Treasury Inspector General for Tax Administration, Ref. No. 2012-20-051, Customer Account Data
Engine 2 Performance and Capacity Is Sufficient, but Actions Are Needed to Improve Testing (May 2012).
                                                                                                       Page 9
                       Customer Account Data Engine 2 (CADE 2): System
                     Requirements and Testing Processes Need Improvements



Figure 1 provides examples of specific infrastructure requirements that did not have a test case.
       Figure 1: Infrastructure Requirements That Did Not Have a Test Case

        Abbreviated Requirement Description                               Test Type and Project
 The Monitoring Agent/Probe shall systematically capture          Processing Automation and Monitoring
 “Time Finish” for batch process…in standardized machine          Infrastructure/DP
 readable format.
 The Correlation Engine shall systematically forward alerts       Processing Automation and Monitoring
 when “Out of Balance” is determined to be in…IMF                 Infrastructure/DP
 Pre-Cutoff Processing.
 The Monitoring Agent/Probe shall systematically capture          Processing Automation and Monitoring
 “Time Start” for batch process…in standardized machine           Infrastructure/DP
 readable format.
 Infrastructure shall provide capability for the IMF to send      Environmental Design Infrastructure/DP
 Revenue Accounting Control System Data to Redesign
 Revenue Accounting Control System on a daily basis.
 The system shall support automated and manual                    Environmental Design Infrastructure/DI
 configuration of setup and workflow information.
 The system should rely primarily on existing platforms,          Environmental Design Infrastructure/DI
 communications, and technologies already operating               and DP
 within the enterprise.
 Infrastructure shall provide capability for the IMF to send      Environmental Design Infrastructure/DP
 TRANSCRIPT…to CADE 2 Transcripts-IMF on a daily
 basis.
 The system shall provide storage                                 Environmental Design Infrastructure/DP
 management…mainframe platform.
 The system shall have development environments.                  Environmental Design Infrastructure/DI
Source: CADE 2 ReqPro extract as of September 1, 2011, and information from the IRS related to the selected
requirements samples.

There were four processing automation and monitoring requirements within our audit sample
that did not have verifiable test cases. We were unable to determine whether these were the
correct test cases because the unique processing automation and monitoring requirement
numbers were not included in the test cases, nor were the specific IRS processing runs included
in the requirements. Instead, the test cases included other processing runs, and the IRS testers
recorded that those processing runs passed during test execution. Therefore, we were unable to
verify these were the correct test cases for testing the requirements in question.


                                                                                                      Page 10
                     Customer Account Data Engine 2 (CADE 2): System
                   Requirements and Testing Processes Need Improvements



The remaining eight requirements from our sample that did not have test cases were for
environmental design requirements. IRS management stated that test cases were not applicable
to these environmental design requirements because they are more appropriately validated
through the use of various infrastructure documents. These documents include Government
equipment lists developed to identify the hardware and software purchases needed to prepare the
environments and environmental checklists used to provide evidence that the equipment has been
installed and is ready for use. The IRS testing staff stated they purchased the equipment needed
for the environments that would support the CADE 2 system, installed the equipment, and
performed preliminary tests to ensure the equipment was ready for use to fulfill its processing
requirements. However, the infrastructure documents, in some instances, do not trace back to the
specific environmental design requirements they are intended to verify. Also, when the
environmental design requirements included an IRS processing element, the infrastructure
documents did not provide evidence that the processing capabilities, such as transmitting data
daily between IRS systems, were tested prior to implementing the system.
During our review, the IRS did not believe that the methods it relied on to verify environmental
design requirements were deficient. However, IRS officials acknowledged our concern,
particularly with the environmental design requirements that have IRS processing features, and
the IRS agreed to perform additional research on applicable guidelines for testing these types of
systems development requirements. We believe that improved controls are needed in this area to
ensure complete testing of the CADE 2 infrastructure and to avoid possible adverse effects on
CADE 2 functionality.
Documenting evidence of test results – The IRS could not always provide actual test results
evidence for the 14 requirements we reviewed. Additionally, five of these 14 requirements
covered DP project activities that did not include an infrastructure requirement that was
implemented in January 2012. The remaining nine were infrastructure requirements for
processing automation and monitoring (five requirements) and environmental design (four
requirements). The IRS did not provide any evidence to validate the five processing automation
and monitoring requirements. The IRS did not ensure testers were following IRM guidelines to
obtain and maintain objective evidence such as screen prints and input and output files to verify
that requirements were sufficiently tested. As a result, there was not an adequate system in place
to provide actual test results.
For the four environmental design requirements, we determined that the IRS provided valid
evidence of test results when we could reasonably identify traceability of the requirements to
design documentation, the equipment purchased, and ready-for-use checklists. However, when
the environmental design requirements included IRS processing elements, the documentation
provided by the IRS did not provide any evidence that the processing capabilities had been
tested. For example, all four of the environmental design requirements contained some
processing capabilities. However, the design documents, Government equipment lists, and
ready-for-use checklists did not provide evidence that these requirements were tested.

                                                                                          Page 11
                        Customer Account Data Engine 2 (CADE 2): System
                      Requirements and Testing Processes Need Improvements



If the documents used to verify actual test results are not available, then the IRS cannot verify the
adequacy of its systems testing activities. In addition, we could not verify the results of these
requirements prior to the implementation of CADE 2 TS1 in January 2012.
IRS management acknowledged that testers should obtain evidence to validate actual test results
in accordance with the IRM. After we presented this finding, the IRS initiated a review of IRM
guidelines and identified inconsistencies in the procedures for obtaining evidence of actual test
results. As a result, the IRS agreed that the IRM may need clarification in regards to obtaining
evidence to validate actual test results.
Management Action: Following our audit fieldwork, the IRS provided us with some
documentation for DP project test results.

Determining the testability of requirements
The CADE 2 Requirements Management Plan includes the guidelines for developing quality
requirements, including ensuring the requirements are “specific enough to implement and test.”
Our review identified that six (12 percent) of 49 sampled approved requirements could not be
tested. The IRS did not ensure that quality review processes, like Customer Technical Reviews,
effectively identified and addressed requirements that could not be tested. For example,
requirements that could not be tested were: 1) written at a high-level; 2) not specific as written,
but were deemed to be covered by many other requirements and test cases; 3) included to update
operating procedures; and 4) a request from the IRS business unit to capture bad data from the
IMF. Figure 2 describes requirements from our audit sample that could not be tested and the
reasons provided by the IRS for not testing the requirements.
                     Figure 2: Requirements That Could Not Be Tested

    Requirement Description               Project Reason the Requirement Could Not Be Tested
The system shall flag data that are the     DI    The requirement is not specific as written. This is a
incorrect classification for correction           request from the business unit to capture unknown
during the load if it is needed for               ‘bad’ data from the IMF. DI project development
tax/financial obligation.                         created tables and provided the captured data to the
                                                  business unit for review. There is no test case
                                                  required.
The system shall transform input data       DI    This requirement is not specific as written. The IRS
to the format required by the CADE 2              stated testing for this requirement is covered by many
database.                                         other requirements, so there is no test case for this
                                                  specific requirement identification number.




                                                                                                Page 12
                         Customer Account Data Engine 2 (CADE 2): System
                       Requirements and Testing Processes Need Improvements




     Requirement Description                Project Reason the Requirement Could Not Be Tested
 The system shall utilize the automated        DP       This requirement involves current processing and a
 scheduling system to schedule                          test case is not required.
 transaction input files for processing
 daily.
 The system shall ensure that the              DP       This was not a true requirement that can be
 Integrated Data Retrieval System                       developed. It is a requirement to prompt
 synchronizes with the current                          coordination. The CADE 2 PMO has coordinated
 processing cycle.                                      with all stakeholders to ensure that the Integrated
                                                        Data Retrieval System and all other downstream
                                                        systems are in sync with the current processing cycle.
 The organization shall save all               DP       This is a procedural requirement to have operating
 production test results for two years.                 procedures updated to reflect the change. No
                                                        associated test case is needed.
 The system shall notify downstream            DP       This requirement could not be tested at this high
 systems of daily updates.                              level, and there is no test case associated. This would
                                                        be covered under other specific requirements.
Source: CADE 2 ReqPro extract as of September 1, 2011, and information from the IRS related to the selected
requirement samples.

 During the audit, IRS management acknowledged the finding and agreed to take needed steps to
 clarify the IRM on the development of requirements. The inclusion of requirements that could
 not be tested could result in insufficiently developed test cases. When the IRS creates test cases
 for requirements that are not specific enough to test, the IRS does not have assurance that these
 test cases are appropriate. If the results from inappropriate test cases are accepted, they could
 adversely affect the operation of the CADE 2 system.

 Deferring requirements without following the change management process
 The CADE 2 Requirements Management Plan indicates that formal change documents should be
 prepared when a requirement is deferred, such as change requests and impact assessments. For
 the CADE 2 Program, change requests must be approved by the Change Control Board. Further,
 assessments are needed to identify the impact of deferred requirements on other requirements
 and system functionality. We identified 12 approved requirements and three proposed
 requirements which had been deferred outside of these change management guidelines. This
 included deferred requirements for forwarding alerts when outbound dollar values reach or
 exceed predetermined thresholds. Other deferred requirements related to capabilities to capture
 outbound transaction counts and inbound dollar values. The IRS did not ensure the required
 change requests and impact assessments were prepared prior to deferring these requirements.



                                                                                                        Page 13
                     Customer Account Data Engine 2 (CADE 2): System
                   Requirements and Testing Processes Need Improvements



IRS staff advised us that it did not prepare formal documentation for these deferred requirements
because the requirements were not deferred to another release (such as CADE 2 Transition
State 2). Without following the established change management guidelines to include the
preparation of impact assessments, users and stakeholders are unable to ascertain the potential
impacts of the deferred requirements on other CADE 2 requirements and system functionality.
Management Action: The IRS acknowledged that the Requirements Management Plan requires
the change management process be fully followed in making decisions to defer requirements.
However, the CADE 2 requirement procedures specifically refer to requirements being deferred
to a future release. The requirements being deferred in our finding were not deferred to a future
release. IRS management stated, however, that our inquiry highlighted a gap in their process
regarding deferral of requirements within a release. As a result, the IRS plans to expand its
change management processes to include deferring and tracking requirements within a release.
This action should ensure that all stakeholders have assessed the potential impacts.

Ensuring testers follow established guidelines during test execution
We observed several IRS testers to ensure CADE 2 tests were successfully executed according to
guidelines provided in IRM 2.6.1. These procedures require IRS testers to document the results,
follow the test scripts, update the test cases during test execution, and maintain sufficient
evidence so the results of testing can be verified during test execution. During 11 on-site test
observations, testers: 1) did not always consider the most recent changes prior to executing a test
case, 2) did not update the test script with observed changes until after the test was executed,
3) experienced a slow response and were unable to access Rational Quality Manager when ready
to record tests results, and 4) did not always have access to the Rational Quality Manager
reporting functionality. These conditions indicate that IRS management did not ensure its testers
consistently followed required IRM guidelines. The risk of incomplete or invalid testing is
increased when testers do not follow required test execution practices. Also, invalid testing
could adversely affect CADE 2 functionality.
Management Action: IRS management stated that the Rational Quality Manager pilot team
provided feedback showing that the Rational Quality Manager reporting function was
performing adequately and availability and accessibility had been good. In addition, the
reporting component of Rational Quality Manager was being implemented and configured at the
same time as our audit fieldwork.




                                                                                           Page 14
                     Customer Account Data Engine 2 (CADE 2): System
                   Requirements and Testing Processes Need Improvements



Recommendations
The Chief Technology Officer should ensure:
Recommendation 3: IRM guidelines are followed, specifically that:
   a. Test cases and other appropriate documentation are properly developed for infrastructure
      requirements and all infrastructure documentation includes complete traceability to the
      requirements being tested and the testing results.
   b. IRS testers obtain and maintain documentation to verify test results.
   c. Test execution practices are consistent prior to the CADE 2 DI project implementation.
       Management’s Response: The IRS agreed with Recommendations 3b and 3c. The
       IRS stated it will ensure that IRM guidelines are followed, that IRS testers obtain and
       maintain documentation to verify test results, and that test execution practices are
       consistent prior to CADE 2 DI project implementation.
       However, the IRS disagreed with Recommendation 3a. The IRS believes that appropriate
       documentation already exists for infrastructure requirements with the association of
       Government Equipment Lists and environmental checklists that provide sufficient
       assurance that infrastructure components have been acquired and implemented.
       Office of Audit Comment: While the IRS’s documentation does verify that
       infrastructure components have been acquired and implemented, we maintain that
       additional infrastructure documentation is needed to verify that processing requirements
       have been tested and to better ensure complete CADE 2 functionality and successful
       long-term implementation of this critical system.
Recommendation 4: Quality review processes, including Customer Technical Reviews,
identify, correct, or remove requirements that could not be tested prior to the implementation of
testing activities.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       stated it will develop procedures to ensure that quality review processes identify, correct,
       or remove requirements that could not be tested prior to the implementation of testing
       activities, which will include Customer Technical Reviews.
Recommendation 5: Formal change management processes are implemented for all deferred
and proposed requirements prior to the CADE 2 DI project implementation.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       stated it will develop procedures to ensure a formal change management process for all
       deferred and proposed requirements.


                                                                                           Page 15
                        Customer Account Data Engine 2 (CADE 2): System
                      Requirements and Testing Processes Need Improvements



Identified Security Issues Need to Be Resolved
The Security Assessment and Authorization process is designed to ensure that an information
system will operate with the appropriate management review, that there is ongoing monitoring of
security controls, and that reaccreditation occurs periodically. As part of this process, the
Cybersecurity organization conducted a CADE 2 Security Control Assessment to ensure the
CADE 2 system’s security safeguards are in place and functioning as intended. The Security
Control Assessment is an analysis of nontechnical and technical security controls required to
protect information in an operational environment. Our review focused on Developer Security
Testing, which was part of the CADE 2 Security Control Assessment.
The Cybersecurity organization will conduct the Developer Security Testing activity8 in
coordination with other IRS supporting organizations to ensure the CADE 2 TS1 meets the
established security requirements in accordance with IRM guidelines and National Institute of
Standards and Technology Special Publication 800-53 (NIST SP 800-53), Recommended
Security Controls for Federal Information Systems and Organizations.9 This activity is the
process of exercising one or more system components under specified conditions to compare
actual test results to expected outcomes. Due to the critical nature of the CADE 2 system, the
IRS is moving forward with systems security under a short term Authorization to Operate
through July 30, 2012; however, the following issues need to be resolved before the CADE 2
system is placed in service.

Management of security requirements testing needs improvement
IRM 2.6.1 provides guidelines for the development of requirements, tracing those requirements
to their sources and test cases, and execution of test cases. It specifies failed test cases should be
re-executed in regression testing to ensure no new errors are created by the correction.
Additionally, the CADE 2 DI TS1 Developer Security Testing Test Plan provides IRM and
NIST SP 800-53 requirements guidance for security testing standards and procedures.
The CADE 2 Application System Security Plan addressed NIST SP 800-53 security controls;
however, we identified areas for needed improvements in Developer Security Testing.
       Testing of Developer Security Testing requirements – During sample selection of these
        requirements, the IRS could not identify and provide complete traceability of test cases to
        security requirements. The Cybersecurity team performed an analysis tracing test cases
        to security requirements. As a result, their analysis identified that 219 (72 percent) of
        303 security requirements were not tested. The Cybersecurity organization noted in
        meetings with us that their intent was not to test 100 percent of all security requirements

8
 The Cybersecurity organization conducted its Developer Security Testing activity only for the CADE 2 database.
9
 NIST, NIST SP 800-53 Rev. 3, Information Security: Recommended Security Controls for Federal Information
Systems and Organizations (Aug. 2009) (includes updates as of May 1, 2010).
                                                                                                        Page 16
                        Customer Account Data Engine 2 (CADE 2): System
                      Requirements and Testing Processes Need Improvements



         but to focus on the most critical controls. However, we are concerned with the high
         percentage of system security requirements not tested at the time of our review.
        Regression testing of failed Developer Security Testing test cases – Based on our review,
         the CADE 2 Developer Security Testing End of Test Results Report identified that
         54 (47 percent) of 115 test cases failed. The 54 failed test cases were categorized into
         16 findings based on NIST SP 800-53 control identification numbers. Further analysis by
         the IRS allowed the 16 findings to be grouped into five risks scheduled for completion in
         February 2012.
The IRS did not ensure the testers followed the IRM guidelines for development, tracing, and
testing of security requirements. The Cybersecurity organization applied NIST SP 800-53
Developer Security Testing guidance and the IRS’s annual controls assessment methodology to
develop Developer Security Testing test cases, security control traceability, and security testing.
In December 2011, the IRS indicated that while not all security requirements would be tested as
part of its Developers Security Testing, 100 percent of all applicable NIST SP 800-53 security
controls would be tested in the Security Control Assessment before the CADE 2 DI project
received its final Authorization to Operate in July 2012. However, CADE 2 officials
acknowledged our finding and agreed clarification at the enterprise-wide level is needed to guide
processes for systems security requirements testing. We believe that if test case development,
security control traceability, and security testing focuses only on required NIST SP 800-53
controls and system components, the risk of missing security requirements could have an adverse
impact on CADE 2 functionality and successful implementation. Adequate system security is
needed to prevent the loss of Personally Identifiable Information and other sensitive data,
maintain taxpayers’ trust, and support tax administration functions within the IRS.

Vulnerability detection scans identified critical issues in the database
management system
The IRM states that identified vulnerabilities should be corrected within a specific time period,
based on criteria in NIST Federal Information Processing Standards (FIPS) Publication 199,
Standards for Security Categorization of Federal Information and Information Systems.10 If the
vulnerabilities are not corrected within the specified time period, the IRS needs to add the
weaknesses to a Plan of Actions and Milestones so they can be tracked and managed.
The IRS introduced the Guardium solution11 to perform database vulnerability detection scans.
In December 2011, the IRS performed a Guardium scan on the mainframe database management
system, which included the four CADE 2 environments: 1) Final Integration Test, 2) Systems


10
   NIST, FIPS PUB 199, FIPS Publication: Standards for Security Categorization of Federal Information and
Information Systems (Feb. 2004).
11
   IBM InfoSphere Guardium’s Vulnerability Assessment solution scans database infrastructures on a scheduled
basis to detect vulnerabilities and suggests remedial actions.
                                                                                                       Page 17
                       Customer Account Data Engine 2 (CADE 2): System
                     Requirements and Testing Processes Need Improvements



Acceptance Test, 3) Development, and 4) Production. Within this database management system
are multiple applications and databases, including CADE 2.
The Guardium scan identified a total of 282 issues across the four environments. While the
weaknesses specific to the CADE 2 system could not be identified, the issues identified are
consistent within each environment. Identified issues are categorized as critical, major, and
minor. Of the 282 issues identified, 208 issues are deemed critical. We reviewed only the
critical issues identified by the Guardium scan.
        Critical access privilege issues related to users, system accounts, and services with
         unauthorized access to privilege functionalities account for 202 of the 208 issues.
        Critical issues related to database configuration account for six of the 208 issues. These
         six configuration issues are related to default databases that were not removed and default
         ports that were active. The IRM states that default sample databases, along with any
         associated objects and user accounts, are to be removed. These default databases utilize
         default user identifications, passwords, and ports, which increase the risk of unauthorized
         users gaining access to sensitive taxpayer information.
We are concerned that the IRS does not have a fully developed enterprise-wide process in place
to address the database weaknesses identified by the Guardium software. While a formal process
for reviewing and resolving the scan results known as the Database Vulnerability Remediation
Process has been developed, it has not been finalized or approved. The IRS reports that the
process is currently being refined on Tier 2 systems before application to Tier 1.
Lastly, the IRS should ensure that a Plan of Actions and Milestones is created within 60 days
after the final Authorization to Operate for the CADE 2 DI project to correct any database
vulnerability weakness or accept the risk. If this does not occur, the vulnerabilities cannot be
tracked and may not be resolved. Again, adequate system security is needed to prevent the loss
of Personally Identifiable Information and other sensitive data, maintain taxpayers’ trust, and
support tax administration functions within the IRS.

Source code security review testing identified security weaknesses in the Java
Balance and Control Initialization Code
Encryption standards are mandatory for all Federal Government systems in accordance with
FIPS Publication 140-2, Security Requirements for Cryptographic Modules.12 Password policies
are set by the IRS in Application and Operating System Password Policies, issued November 25,
2011. In addition, correcting computer source coding issues is a best practice applicable to the
CADE 2 system.

12
  NIST, FIPS PUB 140-2, FIPS Publication: Security Requirements for Cryptographic Modules (May 2001). This
publication provides a standard to be used by Federal organizations when these organizations specify that
cryptographic-based security systems are to be used to provide protection for sensitive or valuable data.
                                                                                                  Page 18
                     Customer Account Data Engine 2 (CADE 2): System
                   Requirements and Testing Processes Need Improvements



The IRS performed a Source Code Security Review of the JAVA programming code in the
CADE 2 Balance and Control Module in October 2011. The IRS stated that this module is used
to initialize the CADE 2 database and will be removed once it is initialized. The code review
identified 12 issues. Examples of these weaknesses are:
      Encryption standards compliant with FIPS Publication 140-2 are not being used. The
       application is using a cryptographic algorithm that is not compliant with Federal
       requirements. The application is using MD5 to generate a hash of the configuration files.
      Data input validation was not being performed, which introduced standard query
       language injection problems. Standard query language injection occurs when a user is
       able to enter malicious data that, when included as part of the query, modify the original
       query to provide additional functionality not intended by the application. This issue is
       partially mitigated because the source of the data moving through this module is from the
       IMF database and not from user input.
      Incorrect logical operators were used in conditional statements, leading to potentially
       invalid results and inappropriate access. One example provided by the Code Review
       team indicated that when saving a file located on the server, the application attempts to
       verify that the file exists and the user has the appropriate privileges to write to the file.
       However, the code as written treats the condition as an “OR” clause, so that only one of
       the conditions has to be met. Once the program determines that the file exists, it will
       ignore the rest of the statement and attempt to save the file, which will cause system
       permission errors if the user does not have write permission on the file.
      Password policy settings required by the IRS were not being used. Although the database
       credentials are encrypted in the configuration files, the username and password appear to
       be the same value, which is a violation of IRS password requirements. Additionally,
       since they are the same value, it would be unlikely that the password being used is
       sufficient to meet IRS standards because that would mean that the username contained
       upper case and lower case letters, numbers, and special characters. Further, passwords
       would need to be changed every 90 days; something that is not true of usernames.
Discussions with the IRS in January 2012 indicated that these issues were not yet addressed and
a date to correct the weaknesses had not been scheduled. Throughout this audit we discussed
with the IRS the need to better ensure that adequate system security is provided for the CADE 2
system in order to minimize risks with the loss of Personally Identifiable Information and other
sensitive data, maintain taxpayers’ trust, and support critical tax administration functions.




                                                                                              Page 19
                     Customer Account Data Engine 2 (CADE 2): System
                   Requirements and Testing Processes Need Improvements



Recommendations
The Chief Technology Officer should ensure:
Recommendation 6: All security requirements and corresponding test cases are identified
and sufficiently traced, managed, and tested prior to the CADE 2 DI project implementation to
ensure the CADE 2 system operates as intended.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       stated it has implemented a trace relationship capability in the CADE 2 Program’s
       requirements repository. This capability allows the traceability of security requirements
       to test case identifiers and provides verification for ensuring that all security requirements
       for the CADE 2 DI are tested. Moving forward, the IRS plans to input test cases into
       Rational Quality Manager. Rational Quality Manager will provide an automated means
       to directly trace test cases to security requirements, thus allowing for proper traceability
       management for security requirements to test cases.
Recommendation 7: All database issues identified by the Guardium scan are resolved or an
action plan is developed with specific corrective actions and time periods.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       stated that the Cybersecurity organization worked with Enterprise Operations using an ad
       hoc process to triage the initial vulnerability findings, and a formal process is currently
       under development.
Recommendation 8: All issues identified by Source Code Security Review scans are
resolved or an action plan is developed with specific corrective actions and time periods prior to
the code being placed into service.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       stated that enterprise-wide, all issues identified by Source Code Security Review scans
       should be resolved or a remediation action plan be developed prior to putting specific
       code in service, absent a risk-based decision by the Program Governance Board. The IRS
       also stated that, in the case of CADE 2 Java Balance and Control Initialization Code, we
       did not mention in the audit report that an explicit, risk-based decision was made by the
       CADE 2 Program Governance Board to accept the code weaknesses related to the
       Program. Since we completed audit fieldwork in January 2012, the IRS has continued to
       perform secure code reviews within the Program.




                                                                                            Page 20
                         Customer Account Data Engine 2 (CADE 2): System
                       Requirements and Testing Processes Need Improvements



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether CADE 2 TS1 testing activities were performed
in accordance with applicable policies and procedures. To accomplish this objective, we:
I.       Requirements Management – Determined whether the CADE 2 requirements
         management activities follow systems development guidelines.
         A. In accordance with audit recommendations in our CADE 2 PMO report,1 determined
            the status of requirements and the requirements repository (ReqPro) used to document
            and control requirements.
         B. Determined whether a complete RTVM has been developed by the CADE 2 PMO
            prior to testing, in accordance to IRM 2.6.1.
         C. For each type of test listed in the audit plan, determined whether the RTVM is
            updated to reflect test case results.
II.      Testing and Deployment – Determined whether the CADE 2 testing activities met IRM
         guidelines and industry standards.
         A. Determined whether the Final Integration Test Phase 1, Systems Acceptance Test,
            Final Integration Test Phase 2 (2012 Filing Season), and User Acceptance Test were
            conducted, results analyzed, and defects adequately resolved.
             1. Obtained and reviewed the test plan to ensure it met IRM requirements.
             2. Determined whether defects identified during testing were resolved.
             3. Judgmentally2 selected and reviewed 49 of 3,083 approved CADE 2 system
                requirements and 48 of 1,530 unapproved CADE 2 system requirements to
                determine whether testing activities complied with IRM guidelines and industry
                standards. We used a judgmental sample because we were not planning to project
                our results.
             4. Obtained and reviewed the Final Integration Test Phase 1 end-of-test report,
                which contains the final complete test results.


1
  Treasury Inspector General for Tax Administration, Ref. No. 2011-20-127, Customer Account Data Engine 2
Program Management Office Implemented Systems Development guidelines; However, Process Improvements Are
Needed to Address Inconsistencies (Sept. 2011).
2
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                           Page 21
                     Customer Account Data Engine 2 (CADE 2): System
                   Requirements and Testing Processes Need Improvements



       B. Conducted on-site test observations of the CADE 2 testing to determine whether
          adequate resources (such as equipment, staff, etc.) were assigned, system developers
          were not performing the testing, testers fully completed the test scripts assigned, and
          tests results were accurately recorded.
III.   Security – Determined whether the System Security Plan for the CADE 2 system
       included adequate security controls and whether security testing activities performed
       prior to deployment met NIST and IRM requirements guidance and industry standards.
       A. Obtained the System Security Plan to determine whether adequate security controls
          were in place.
       B. Obtained Developer Security Test testing results to verify that the security controls
          included in the System Security Plan were successfully tested.
       C. Obtained Accessibility Test testing results to verify that the security controls included
          in the System Security Plan were successfully tested.
       D. For any other security tests identified during the audit, obtained testing results to
          verify that the security controls adequately met applicable security guidance.
IV.    Configuration Testing – Determined the adequacy of the configuration management of
       the CADE 2 operating system and associated databases in accordance with NIST, IRM,
       and other Federal guidance.
       A. Assessed the adequacy of IRS configuration management processes over the CADE 2
          operating system and associated databases in both test and production environments.
       B. Interviewed CADE 2 operating system and database management personnel to
          determine reasons for variances from the standards, if any.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRM and related IRS guidelines and the
processes followed in the development of information technology projects. We evaluated these
controls by conducting interviews with management and staff, attending meetings of the
CADE 2 Test Program and project teams, attending on-site tests, and reviewing Program
documentation such as the CADE 2 Program Test Plan, CADE 2 Requirements Management
Plan, various test plans, and other documents that provided evidence of whether IRS systems
testing processes were followed and whether those processes were adequate.



                                                                                            Page 22
                    Customer Account Data Engine 2 (CADE 2): System
                  Requirements and Testing Processes Need Improvements



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Gwendolyn A. McGowan, Director (Systems Modernization and Applications Development)
Danny R. Verneuille, Director
Kimberly R. Parmley, Audit Manager
Larry W. Reimer, Information Technology Audit Manager
Suzanne M. Westcott, Lead Auditor
Charlene L. Elliston, Senior Auditor
Louis Lee, Senior Auditor
Wallace C. Sims, Senior Auditor
David F. Allen, Senior Program Analyst
Hung Q. Dam, Information Technology Specialist
Arlene Feskanich, Information Technology Specialist
K. Kevin Liu, Information Technology Specialist




                                                                                     Page 23
                    Customer Account Data Engine 2 (CADE 2): System
                  Requirements and Testing Processes Need Improvements



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Deputy Chief Information Officer for Strategy/Modernization OS:CTO
Associate Chief Information Officer, Applications Development OS:CTO:AD
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Associate Chief Information Officer, Modernization – Program Management Office
OS:CTO:MP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Wage and Investment Division SE:W:S:PRA:PEI
       Director, Risk Management Division OS:CTO:SP:RM




                                                                                 Page 24
                      Customer Account Data Engine 2 (CADE 2): System
                    Requirements and Testing Processes Need Improvements



                                                                                      Appendix IV

                                Glossary of Terms

Term                  Definition
Applications          The IRS organization responsible for building, testing, delivering, and
Development           maintaining integrated information applications systems, i.e., software solutions,
Organization          to support IRS modernized systems and the production environment.
Authorization to      A formal declaration by a Designated Approving Authority that authorizes
Operate               operation of a business product and explicitly accepts the risk to agency
                      operations (including mission, functions, image, or reputation), agency assets, or
                      individuals based on the implementation of an agreed-upon set of information
                      security controls.
Bidirectional         Bidirectional traceability of requirements can be established from the source
Traceability          requirement to its lower level requirements and from the lower level
                      requirements back to their source. Such bidirectional traceability helps
                      determine that all source requirements have been completely addressed and that
                      all lower level requirements can be traced to a valid source. Also, once test cases
                      are developed for associated requirements, bidirectional traceability enables
                      requirements to trace to test cases and test cases to trace to requirements.
CADE 2 Transition     Modifies the IMF from a weekly cycle to daily processing, establishes a new
State 1 Solution      relational database to store all individual taxpayer account information, and
                      provides management tools to more effectively use data for compliance and
                      customer service. See Customer Account Data Engine.
Change Request        The medium for requesting approval to change a baselined requirement, product,
                      or other controlled item.
Configuration         The overall way a computer is set up that pertains to hardware and software.
Cryptographic         An encrypted or unreadable list of instructions, procedures, or formulas used to
Algorithm             solve a problem.
Customer Account      A major component of the IRS’s Modernization Program. The system consists
Data Engine           of current and planned databases and related applications that work with the IRS
                      Master File system (see Master File).
Customer              Requirements that describe a business or technical need, such as desired
Requirement           functionality, acceptable performance, storage capacity, or system availability
                      and reliability, in the language of the customer.



                                                                                                Page 25
                         Customer Account Data Engine 2 (CADE 2): System
                       Requirements and Testing Processes Need Improvements




Term                     Definition
Daily Processing         A project under the CADE 2 Program that, when completed, will change weekly
Project                  individual taxpayer account processing to daily processing.
Database                 The CADE 2 developed a centralized relational database. A relational database
                         is a collection of data items organized as a set of formally described tables from
                         which data can be accessed or reassembled in many different ways without
                         having to reorganize the database tables.
Database                 A project under the CADE 2 Program intended to implement the newest version
Implementation           of the relational database.
Project
Database                 A collection of programs that can store, modify, and extract information from a
Management System        database.
Developer Security       Addresses confidentiality, integrity, and availability of the software; data
Test (SA-11)             processed by the system; and resolution of issues that could result in security
                         vulnerabilities.
Encryption               The process of making data unreadable by other humans or computers for the
                         purpose of preventing others from gaining access to its contents.
Enterprise               A unifying overall design or structure for an enterprise that includes business and
Architecture             organizational aspects of the enterprise as well as technology aspects. Enterprise
                         Architecture divides the enterprise into its component parts and relationships and
                         provides the principles, constraints, and standards to help align business area
                         development efforts in a common direction. An Enterprise Architecture ensures
                         that subordinate architectures and business system components developed within
                         particular business areas and multiple projects fit together into a consistent,
                         integrated whole.
Enterprise Life Cycle    A structured business systems development method that requires the preparation
                         of specific work products during different phases of the development process.
Federal Information      A set of standards that describe document processing, encryption algorithms, and
Processing Standards     other information technology standards for use within nonmilitary Government
                         agencies and by Government contractors and vendors who work with the
                         agencies.
Filing Season            The period from January 1 through April 15 when most individual income tax
                         returns are filed.




                                                                                                   Page 26
                       Customer Account Data Engine 2 (CADE 2): System
                     Requirements and Testing Processes Need Improvements




Term                     Definition
Final Integration Test   For the CADE 2 system, the Final Integration Test will be conducted in two
Phase 1                  phases – Phase 1 and Phase 2. Phase 1 has been added to the testing life cycle to
                         accelerate the timing of integrated system testing and provide additional time to
                         take corrective action for any issues that might be identified. Phase 1 will be
                         performed to validate the weekly cycle change, data migration, system
                         integration, systems monitoring and trouble handling, balance and control,
                         operations automation/scheduling, and system performance.
Final Integration Test   For the CADE 2 system, the Final Integration Test will be conducted in two
Phase 2                  phases – Phase 1 and Phase 2. Phase 2 will be a “traditional” filing season Final
                         Integration Test that includes the 2012 Filing Season and legislative changes.
                         The Final Integration Test is the integrated end-to-end testing of multiple
                         systems that support the high-level business requirements of the IRS. It is
                         designed to ensure that IRS systems interoperate correctly prior to production
                         startup utilizing copies of production data in a near-production environment.
                         The Final Integration Test is performed from the perspective that all IRS
                         application systems are subsystems to an overall Tax Processing System. The
                         Tax Processing System consists of hundreds of subsystems operating on many
                         unique hardware and software platforms. The Final Integration Test verifies that
                         data are transferred correctly between the systems within the Tax Processing
                         System.
Hashing                  When referring to security, hashing is a method of taking data, encrypting it, and
                         creating unpredictable, irreversible output. There are many different hashing
                         algorithms. MD2, MD5, SHA, and SHA-1 are examples of hashing algorithms.
Individual Master        The IRS database that maintains transactions or records of individual
File                     tax accounts.
Infrastructure           The fundamental structure of a system or organization. The basic fundamental
                         architecture of any system (electronic, mechanical, social, political) determines
                         how it functions and how flexible it is to meet future requirements.
Initiation Phase         The first of four phases of the IRS testing life cycle. The Initiation Phase begins
                         the test planning process to determine the test scope, cost, and schedule. It also
                         includes requirements analysis and the development of the RTVM.
Integrated Data          The IRS computer system capable of retrieving or updating stored information;
Retrieval System         it works in conjunction with a taxpayer’s account records.
Java Programming         Computer program instructions used by computer programmers to develop
Code                     applications, scripts, or other sets of instructions for a computer to execute.
Logical Operators        Another way of defining the Boolean operators: AND, OR, and NOT. The
                         Boolean operators were developed by the English mathematician and computer
                         pioneer, George Boole.

                                                                                                     Page 27
                          Customer Account Data Engine 2 (CADE 2): System
                        Requirements and Testing Processes Need Improvements




Term                      Definition
Master File               The IRS database that stores various types of taxpayer account information. This
                          database includes individual, business, and employee plans and exempt
                          organizations data.
Milestone                 Scheduled time period for providing a “go/no-go” decision point in a program or
                          project (can be associated with funding approval to proceed).
National Institute of     A nonregulatory Federal agency, within the Department of Commerce,
Standards and             responsible for developing standards and guidelines, including minimum
Technology                requirements, for providing adequate information security for all Federal
                          Government agency operations and assets.
Personally                Information that can be used to uniquely identify, contact, or locate a single
Identifiable              individual or that can be used with other sources to uniquely identify a single
Information               individual.
Plan of Actions and       A management process that outlines weaknesses and delineates the tasks
Milestones                necessary to mitigate them.
Rational Quality          An application used to manage testing activities, including test cases, across the
Manager                   testing life cycle. Rational Quality Manager was a pilot project for the CADE 2
                          Program and was not used by all testing partners.
Rational Requisite        An application used for requirements management. The IRS has established
Pro                       ReqPro as its Enterprise Architecture standard for requirements management. It
                          is used to capture detailed requirement data such as the requirement text and any
                          supporting attributes to organize or clarify the requirement. The application also
                          has the capability to create and maintain full requirements traceability within a
                          single project or across multiple projects.
Requirement               A formalization of a need and statement of a capability or condition that a system
                          must have or meet to satisfy a contract, standard, or specification.
Requirements              Routinely reports on requirements measures and metrics to provide leadership
Measures and Metrics      with objective information to evaluate the status of requirements and identify
Report                    areas for remediation. For example, the requirements measures include
                          requirements volatility, requirements traceability, requirements completeness,
                          etc. The requirements metrics include the total number of requirements, the
                          number of requirements by type, the number of revisions made to requirements,
                          the number of requirements not traced, etc.
Requirements              A tool that documents requirements and establishes the traceability relationships
Traceability              between the requirements to be tested and their associated test cases and test
Verification Matrix       results.




                                                                                                      Page 28
                       Customer Account Data Engine 2 (CADE 2): System
                     Requirements and Testing Processes Need Improvements




Term                     Definition
Security Certification   A security certification is an independent technical evaluation, for the purpose of
and Accreditation        accreditation, that uses security requirements as the criteria for the evaluation.
                         An accreditation is an authorization granted by a management official to operate
                         the system based on the evaluation of the security controls.
Source Code Security     The Cybersecurity organization conducts activities designed to ensure a system’s
Review                   security safeguards are in place and functioning as intended. Source code
                         analysis will be used to test CADE 2 application code for potential security
                         vulnerabilities. Source Code Security Review is the process of auditing the
                         source code for an application to verify the proper security controls are present,
                         that they work as intended, and that they have been invoked in all the right
                         places.
Stakeholders             An individual or organization that is materially affected by the outcome of the
                         system. Key stakeholders represent both business and technical functions that
                         fully participate in the architecture development effort to ensure that directional
                         guidance is both accurate and sufficient. These stakeholders are empowered to
                         make project and architectural decisions. Examples of project stakeholders
                         include the customer, the user group, the project manager, the development team,
                         and the testers.
Standard Query           A standardized query language for requesting information from a database.
Language
Standard Query           A form of attack on a database-driven website in which the attacker executes
Language Injection       unauthorized Standardized Query Language commands by taking advantage of
                         insecure code on a system connected to the Internet, bypassing the firewall.
Systems Acceptance       A software test to ensure the designed and delivered software has met all system
Test                     requirements. This is accomplished by validating that the project or system
                         performs as expected when subjected to controlled test cases and data for both
                         valid and invalid conditions.
Test Case                A test case is created to specify and document the conditions to be tested and to
                         validate that system functions meet requirements as translated into documented
                         functional design. A test case also tests outside the normal or expected functions
                         in order to find defects.
Testing Partners         The CADE 2 testing partners are those IRS organizations (Enterprise Systems
                         Testing, Cybersecurity, Applications Development, etc.) that participate in
                         CADE 2 testing.
Tier 1 system            A system comprised of supercomputers and mainframe hardware and software.




                                                                                                   Page 29
                     Customer Account Data Engine 2 (CADE 2): System
                   Requirements and Testing Processes Need Improvements




Term                   Definition
Tier 2 system          A system comprised of minicomputers and software, i.e., computers usually
                       containing multiple microprocessors, capable of executing multiple processes
                       simultaneously and oftentimes serve multiple users by way of a communications
                       network. Local Area Network servers are often located in a space separate from
                       the normal office environment. The minicomputer is more robust than a
                       microcomputer.
Traceability           Describes the life of a requirement from the initial source through its
                       development and actual deployment into operations.
Unified Work           Details the requested design and functionality of a system.
Request
User Acceptance Test   A test conducted to validate that the system works as designed and implemented
                       and satisfies the business requirements of the system.
Validation             Verification that something is correct or conforms to a certain standard.
Vulnerability          In computer security, vulnerability is a weakness which allows an attacker to
                       reduce a system’s information assurance.
Vulnerability          The Cybersecurity organization conducts activities designed to ensure a system’s
Detection Scans        security safeguards are in place and functioning as intended. Vulnerability
                       Detection Scans verify whether security and privacy mechanisms designed to
                       protect vulnerable areas of the system are configured properly and enforced.




                                                                                                   Page 30
       Customer Account Data Engine 2 (CADE 2): System
     Requirements and Testing Processes Need Improvements



                                                 Appendix V

Management’s Response to the Draft Report




                                                       Page 31
  Customer Account Data Engine 2 (CADE 2): System
Requirements and Testing Processes Need Improvements




                                                  Page 32
  Customer Account Data Engine 2 (CADE 2): System
Requirements and Testing Processes Need Improvements




                                                  Page 33
  Customer Account Data Engine 2 (CADE 2): System
Requirements and Testing Processes Need Improvements




                                                  Page 34
  Customer Account Data Engine 2 (CADE 2): System
Requirements and Testing Processes Need Improvements




                                                  Page 35
  Customer Account Data Engine 2 (CADE 2): System
Requirements and Testing Processes Need Improvements




                                                  Page 36
  Customer Account Data Engine 2 (CADE 2): System
Requirements and Testing Processes Need Improvements




                                                  Page 37
